Nos. 20-512, 20-520
IN THE

6upreme
Court of
tbe Ilititeb
Supreme Court
of the
United estate.
States
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.

SHAWNE ALSTON, et al.,
Respondents.
AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.

SHAWNE ALSTON, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICI CURIAE
ANTITRUST ECONOMISTS
IN SUPPORT OF PETITIONERS
WILLIAM L. MONTS III
HOGAN LOVELLS US LLP
555 Thirteenth St, N.W.
Washington, D.C. 20004

BRUCE D. OAKLEY
Counsel of Record
HOGAN LOVELLS US LLP
609 Main Street
Suite 4200
Houston, TX 77002
(713) 632-1400
bruce.oakley@hoganlovells.com

Counsel for Amici Curiae

INTEREST OF AMICI CURIAE
This brief is submitted on behalf of a group of economists ("Supporting Economists"), listed in Appendix
A, with decades of experience assessing collaborations, product design and innovation, particularly in
the antitrust context. Supporting Economists also
have extensive academic and practical experience in
assessing whether and to what extent certain forms of
judicial scrutiny and action in antitrust matters can
undermine incentives to form or invest in procompetitive collaborations. Supporting Economists have an
interest in ensuring that the antitrust laws are not
applied to collaborations, or any firms, in a manner
that does not promote consumer welfare, but instead
is likely to significantly undermine incentives to form
and enhance procompetitive collaborations.1

1 Pursuant to Rule 37.6, amici affirm that no counsel for a party
authored this brief in whole or in part and that no person other
than amici and their counsel made a monetary contribution to
its preparation or submission. Counsel of Record for all parties
received notice at least 10 days prior to the due date of amici's
intention to file this brief. All parties have consented to the filing of this brief.

(i)

11
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE
TABLE OF AUTHORITIES
INTRODUCTION AND SUMMARY OF
ARGUMENT

i
iv

ARGUMENT
INNOVATION IS PROMOTED WHEN
I.
ECONOMIC ACTORS HAVE THE
FREEDOM TO DESIGN AND CREATE THEIR OWN PRODUCTS AND
BUSINESS MODELS
A. Innovation Incentives are No Less
Important for Collaborations
Than Other Business Firms, and
Perhaps More So
B. There Is a Critical Difference Between Product Design and Restraints Relating to Making or
Selling a Product
II. THE NINTH CIRCUIT'S DECISION
HERE INVITES LOWER COURTS TO
INTERFERE WITH BASIC PRODUCT DESIGN
A. The Lower Court Should Never
Have Reached the "Full" Rule of
Reason
B. Applying Less Restrictive Alternative Analysis to Product Design
Undermines Innovation Incentives for All Firms and Collaborations

4

1

4

5

6

8

8

11

111
TABLE OF CONTENTS—Continued
Page
C.

If Less Restrictive Alternative
Analysis Applies to Product Design, Then Courts Must Assess the
Effect on Both Product Quality
and Marketwide Consumer Welfare
CONCLUSION
APPENDIX: LIST OF AMICI CURIAE

13
16
la

iv
TABLE OF AUTHORITIES
Page(s)
CASES
Agnew v. Nat'l Collegiate Athletic Ass'n,
9
683 F.3d 328 (7th Cir. 2012)
Am. Motor Inns, Inc. v. Holiday Inns, Inc.,
521 F.2d 1230 (3d Cir. 1975)
3
Am. Needle, Inc. v. Nat'l Football League,
560 U.S. 183 (2010)
6, 9, 13
Chicago Pro. Sports Ltd. P'ship v. Nat'l
Basketball Ass'n,
11, 12
95 F.3d 593 (7th Cir. 1996)
Deppe v. Nat'l Collegiate Athletic Ass'n,
9
893 F.3d 498 (7th Cir. 2018)
FTC v. Qualcomm, Inc.,
10
969 F.3d 974 (9th Cir. 2020)
In re Nat'l Collegiate Athletic Ass'n Grant-inAid Cap Antitrust Litig.,
375 F. Supp. 3d 1058 (N.D. Cal. 2019)
8
In re Nat'l Collegiate Athletic Ass'n Grant-inAid Cap Antitrust Litig.,
958 F.3d 1239 (9th Cir. 2020)
8
Leegin Creative Leather Prods., Inc. v. PSKS,
Inc.
14
551 U.S. 877 (2007)
McCormack v. Nat'l Collegiate Athletic Ass'n,
845 F.2d 1338 (5th Cir. 1988)
9
Nat'l Football League v. N. Am. Soccer
League,
459 U.S. 1074 (1982)
3

V
TABLE OF CONTENTS—Continued
Page
Nat'l Football League v. Ninth Inning, Inc.,
No. 19-1098, 2020 WL 6385695 (U.S. Nov.
2, 2020)
NCAA v. Board of Regents,
468 U.S. 85 (1984)
Ohio v. Am. Express Co.,
138 S. Ct. 2274 (2018)
Texaco, Inc. v. Dagher,
547 U.S. 1 (2006)
Town of Concord v. Boston Edison Co.,
915 F.2d 17 (1st Cir. 1990)
Verizon Commc'ns, Inc. v. Law Offs. of Curtis
V. Trinko, LLP,
540 U.S. 398 (2004)
STATUTES:
15 U.S.C. § 1
15 U.S.C. § 2
20 U.S.C. § 1681 et seq.
OTHER AUTHORITY:
Howard H. Chang, David Evans & Richard
Schmalensee, Some Economic Principles
for Guiding Antitrust Policy Towards Joint
Ventures, 1998 Colum. Bus. L. Rev. 223
(1998)
Joseph A. Schumpeter, Capitalism, Socialism and Democracy (1942)

9
passim
14
6, 7
11

2, 6
2, 6
2
5

2
4

Nos. 20-512, 20-520
IN THE

6uprente
Court of
tbe Ilititeb
Supreme Court
of the
United estate.
States
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, et al.,
Respondents.
AMERICAN ATHLETIC CONFERENCE, et al.,
Petitioners,
v.
SHAWNE ALSTON, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICI CURIAE
ANTITRUST ECONOMISTS
IN SUPPORT OF PETITIONERS
INTRODUCTION AND
SUMMARY OF ARGUMENT
It is important for this Court to clarify that, when
considering collaborations, the Sherman Act should
be invoked only to analyze the competitive effects of
the collaboration and not as a tool to redesign the collaboration's product or business model. The Sherman
Act does not authorize federal courts to alter a product—here, college athletics—because a judge believes
(1)

2
that the interests of an input provider—here, student
athletes—would be better served with a different
product design. The Sherman Act fosters innovation
and promotes investment incentives when collaborations are free to test their product designs and business models without the risk of second-guessing by
courts or juries. This Court has rightly warned
against using the Sherman Act as device for central
planning. Verizon Commc'ns, Inc. v. Law Offs. of Curtis V. Trinko, LLP, 540 U.S. 398, 408 (2004). While
that principle often is invoked to protect unilateral
competitive conduct under Section 2 of the Sherman
Act, 15 U.S.C. § 2, its economic foundations apply
equally to the fundamental business decisions of procompetitive ventures under Section 1. Id. § 1. See generally Howard H. Chang, David Evans & Richard
Schmalensee, Some Economic Principles for Guiding
Antitrust Policy Towards Joint Ventures, 1998 Colum.
Bus. L. Rev. 223, 262-68 (1998). Petitioner NCAA is
undeniably a procompetitive collaboration that creates amateur athletic competitions. NCAA v. Board of
Regents, 468 U.S. 85, 101-02 (1984) (noting that "the
NCAA seeks to market a particular brand of football—
college football"—and the amateur character and
"quality of the `product' . . . cannot be preserved except by mutual agreement"). The design of products,
even those offered by joint ventures of competitors, is
best left to the venture itself. But when antitrust
courts—with their power to award treble damages
and order injunctive relief—effectively oversee product design or business models themselves, the incentives to innovate and respond to marketplace forces
are seriously undermined, ultimately harming consumers. See Chang, et al., supra, 1998 Colum. Bus. L.
Rev. at 266-67.

3
Even if antitrust courts have a role under the Sherman Act in scrutinizing, and even modifying internal
product design decisions (as the courts below did
here), it is particularly important to ensure that the
definition and application of so-called "less restrictive
alternatives" do not undermine innovation and investment incentives or otherwise harm consumer welfare.
Less restrictive alternative analysis is not a roving
mandate for antitrust courts to impose limitations on
product designs because the court or a private plaintiff can conjure up some alternative design that it
thinks is "fairer" or more advantageous to a particular
supplier or constituency. The Sherman Act tests the
reasonableness of a restraint, not whether it is the
"least" restrictive approach that might be adopted.
See, e.g., Am. Motor Inns, Inc. v. Holiday Inns, Inc.,
521 F.2d 1230, 1248 (3d Cir. 1975) ("In a rule of reason
case, the test is not whether the defendant deployed
the least restrictive alternative."); Nat'l Football
League v. N. Am. Soccer League, 459 U.S. 1074, 1079
(1982) (Rehnquist, J., dissenting from the denial of
certiorari) ("The antitrust laws impose a standard of
reasonableness, not a standard of absolute necessity.").
Here, however, while asserting that standard, both
the district court and Ninth Circuit effectively applied
a "least" restrictive alternative approach without
placing any burden on the plaintiffs to show that the
alternative approach could preserve the NCAA's conception of its own product design. Nor, importantly,
did the Ninth Circuit even consider whether its selfmade alternative would just as likey harm consumer
welfare in the "but for world"—i.e., whether the same
output and quality of amateur athletic competitions
would likely exist throughout the NCAA under the

4
court's self-defined remedy. Such an economic inquiry
is essential to ensure that supposedly less restrictive
alternatives enhance rather than harm consumer welfare. A court's musings are not a substitute for this
economic analysis of the but-for world.
ARGUMENT
I. INNOVATION IS PROMOTED WHEN ECONOMIC ACTORS HAVE THE FREEDOM TO
DESIGN AND CREATE THEIR OWN PRODUCTS AND BUSINESS MODELS.
Innovation, whether as a result of "creative destruction," Joseph A. Schumpeter, Capitalism, Socialism
and Democracy 81-86 (1942), or through iterative evolution, is a critical force in our economy. Accordingly,
firms must have the freedom to create products and
business models as they see fit in response to consumer demand. This ability inherently promotes both
consumer welfare and total welfare.
The NCAA's product, amateur college athletic competitions, is just such a product. Whether measured
by consumer demand or any other metric, it is one of
the most successful products in the history of our
economy. It represents a prime example of creating
and adapting a product to a changing marketplace. In
particular, as supply and demand of college sports
transitioned to television, and now to the complexities
of our digital economy, the NCAA's consistent and
growing popularity reflects a product—"amateur
sports" played by students and identified with the academic tradition—that continues to generate enormous consumer interest. Moreover, it appears without
dispute that the NCAA, while in control of the design
of its own athletic products, has preserved their

5
integrity as amateur sports, notwithstanding the commercial success of some of them, particularly Division
I basketball and Football Subdivision football. Even
the less commercially successful sports that the
NCAA and its member institutions offer have the
same product design rules. When Congress has perceived inequities or other concerns in intercollegiate
athletics, such as differing opportunities for men and
women, it has addressed them through legislation.
See 20 U.S.C. § 1681 et seq. But it has never mandated
any particular product design. Rather, it has left colleges and universities, acting through governing bodies, such as the NCAA, to establish the parameters of
intercollegiate athletic competition, just as they do
with any other part of their educational programs.
Over many years, the NCAA has continually adjusted its eligibility and participation rules to prevent
colleges from pursuing their own interests—which
certainly can involve "pay to play"—in ways that
would conflict with the procompetitive aims of the collaboration. In this sense, the NCAA's amateurism
rules are a classic example of addressing negative externalities and free riding that often are inherent or
arise in the collaboration context.
A. Innovation Incentives Are No Less Important for Collaborations Than Other
Business Firms, and Perhaps More So.
Absent the collaborative nature of the NCAA, it
would have been difficult for the lower courts to insinuate themselves into the design of the NCAA's amateurism product. Section 1 would not apply to the unilateral design of a product, including the design of amateur athletic competitions.

6
Here, however, because of the collaboration framework and application of Section 1 of the Sherman Act,
15 U.S.C. § 1, courts may be tempted to assess and
modify product designs or business models. That is
what happened here and, economically, it is a mistake: antitrust courts are no more likely to improve
innovation and investment incentives when addressing internal product design decisions of collaborations
than they are for unitary firms. See, e.g., Texaco, Inc.
v. Dagher, 547 U.S. 1, 6 (2006) (treating internal pricing decisions of a joint venture as "little more than
price setting by a single entity"); Trinko, 540 U.S. at
408 (noting that courts are "ill-suited" to determine
the price, quantity, and other terms of dealing). This
is especially true where, as here, the amateur product
cannot be created by any one college alone, and further, can only retain its essential amateur design if
colleges coordinate with each other in making rules to
preserve the product's amateur characteristics. Am.
Needle, Inc. v. Nat'l Football League, 560 U.S. 183,
202 (2010) (noting that a sports league's need to "cooperate in the production and scheduling of games"
justifies "a host of collective decisions"); NCAA, 468
U.S. at 102 (noting that the integrity of the product of
college football "cannot be preserved except by mutual
agreement," including on such matters as player compensation).
B. There Is a Critical Difference Between
Product Design and Restraints Relating to
Making or Selling a Product.
From an economic perspective, the most important
distinction at issue in this case is that between the
fundamental design or parameters of a product, and
separately, any restraints relating to the inputs for

7
the product or the product's output. Indeed, absent
such a clear delineation of that distinction, courts
could apply the Sherman Act to a collaboration's or
firm's chosen product characteristics or business
model when no restraints or exclusionary behavior
are even in play. See Dagher, 547 U.S. at 5-6 (distinguishing joint venture restrictions "on nonventure activities" from "core activity of the joint venture itself");
NCAA, 468 U.S. at 117 (distinguishing between challenged restrictions on football telecasts and "rules defining the conditions of the contest, the eligibility of
participants, or the manner in which members of a
joint enterprise shall share the responsibilities and
the benefits of the total venture") (emphasis added).
Permitting judges and juries to apply the Sherman
Act to such decisions will inevitably create uncertainty that undermines innovation and investment incentives across any number of industries and collaborative ventures. In these circumstances, antitrust
courts would be making public policy regarding the
desirability of a product with particular features, as
opposed to ferreting out agreements or unilateral conduct that restricts output, raises prices, or reduces innovation to the detriment of consumers.
It makes perfect economic sense, of course, for antitrust courts to scrutinize firms and collaborations
when they create restraints that go beyond the product
design itself On the output side—and assuming for
purposes here only that the NCAA is not viewed as a
single entity—this could include an assessment of
broadcast restrictions for the NCAA's amateur competitions. Id. And while the input side might be more
complicated to dissect, certainly there is a difference
between what the NCAA determines are its product's
amateur characteristics (i.e., rules concerning

8
eligibility and ensuring that student-athletes are not
"paid to play") and restraints that are independent of
the product design—for example if the NCAA (hypothetically) were to institute a draft of high school athletes. This latter example would not go to the essential
nature of the product, while the former examples do.
This critical distinction, however, was lost on the
courts below. The inevitable result was an application
of the rule of reason that attacks basic product design
decisions and inevitably conflicts with the Sherman
Act's consumer welfare focus.
II. THE NINTH CIRCUIT'S DECISION HERE
INVITES LOWER COURTS TO INTERFERE
WITH BASIC PRODUCT DESIGN.
A. The Lower Court Should Never Have
Reached the "Full" Rule of Reason.
Because the lower courts made no distinction between a product's design and what may properly be
viewed as restraint or exclusionary behavior related
to inputs or outputs, they never undertook any threshold inquiry into whether the full rule of reason was
necessary or appropriate in the case. Instead, both the
district court and Ninth Circuit treated the product
itself as facially anticompetitive in an input market
for student-athletes' "labor." In re Nat'l Collegiate Athletic Ass'n Grant-in-Aid Cap Antitrust Litig., 958 F.3d
1239, 1256-57 (9th Cir. 2020); In re Nat'l Collegiate
Athletic Ass'n Grant-in-Aid Cap Antitrust Litig., 375
F. Supp. 3d 1058, 1066-70 (N.D. Cal. 2019). From that
ill-conceived foundation, those courts essentially presumed that the NCAA's amateur product was itself
anticompetitive under Section 1.

9
Apart from the legal shortcomings of such a starting
point, NCAA, 468 U.S. at 101-02 (noting that NCAA's
product-defining rules allow for the marketing of a
product that would not otherwise exist and widen consumer choice), that analytical premise lacks an economic basis. The economic starting point should be
the observation that there is enormous demand for
amateur athletics and, hence, rules preserving and refining the product's core amateur characteristics
should be considered inherently output enhancing
and procompetitive. Id. Such a starting point—together with the essentiality of coordinating on the parameters of what is amateurism—suggests an entirely different analysis that dispenses with such antitrust challenges quickly rather than, as here, the
courts' presumption that the rules defining the product are facially anticompetitive. Deppe v. Nat'l Collegiate Athletic Ass'n, 893 F.3d 498, 501-02 (7th Cir.
2018) (NCAA bylaws presumptively procompetitive
when "clearly meant to help maintain the `revered tradition of amateurism in college sports' or the `preservation of the student-athlete in higher education')
(quoting Agnew v. Nat'l Collegiate Athletic Ass'n, 683
F.3d 328, 342 (7th Cir. 2012); McCormack v. Nat'l Collegiate Athletic Ass'n, 845 F.2d 1338, 1345 (5th Cir.
1988) (dismissing at the pleading stage a challenge to
NCAA bylaws limiting compensation of athletes and
rejecting an argument the NCAA must "distill[] amateurism to its purest form"); see also Am. Needle, 560
U.S. at 202 ("NFL teams . . . must cooperate in the
production and scheduling of games) (emphasis
added); Nat'l Football League v. Ninth Inning, Inc.,
No. 19-1098, 2020 WL 6385695, at *1 (U.S. Nov. 2,
2020) (statement of Kavanaugh, J., respecting denial
of certiorari) ("antitrust law likely does not require

10
that the NFL and its member teams compete against
each other with respect to television rights"). Thus,
properly characterized, the burden would be on the
plaintiff to allege and demonstrate that the challenged "restraints" are independent of the product's
fundamental—indeed essential—design. Such an inquiry can be carried out efficiently at the pleading
stage, especially when potential false positives are
likely to lead to an enormous amount of wasteful litigation aimed at the product design decisions of collaborations, concerns that are more properly for policy
makers.
Moreover, from an economic perspective, the lack of
what may be called judicial regulation distinguishes
the U.S. antitrust laws—and its related protection of
investment and innovation incentives—from those in
many other jurisdictions. In the United States, innovators, including those operating through collaborations, know that they are free to create products and
business models as the desire, subject only to any regulation that may apply. Cf. FTC v. Qualcomm, Inc.,
969 F.3d 974 (9th Cir. 2020). And while collaborations
may be subject to antitrust risk for implementing certain output or input restraints, their product design
decisions will only be judged by the market. This freedom to create and modify (as desired) products and
business models without the risk of judicial secondguessing (coupled with treble damages and injunctive
relief) safeguards significant innovation and investment incentives across industries, and is a bedrock
economic principle of the United States economy.
Courts apply the law; they do not make or implement
policy. Yet that is precisely what happened in this
case.

11
Indeed, acting more like regulators, the lower courts
treated the NCAA's basic product design as inherently
anticompetitive, pushing forward with a full rule of
reason that sent the parties into a morass of inquiries
that were not (and were never intended to be) structured to scrutinize basic product design decisions and
their hypothetical alternatives. Because that inquiry
was unrestrained and untethered to any input or output restraint, the application of the rule of reason in
this case necessarily devolved into a quasi-regulatory
inquiry, which antitrust law eschews. See Chicago
Pro. Sports Ltd. P'ship v. Nat'l Basketball Ass'n, 95
F.3d 593, 597 (7th Cir. 1996) (rejecting district court's
analysis concerning the NBA's imposition of a fee on
out-of-market telecasts because it read "like the ruling
of an agency exercising a power to regulate rates"); see
also Town of Concord v. Boston Edison Co., 915 F.2d
17, 25 (1st Cir. 1990) (Breyer, C.J.) ("antitrust courts
normally avoid direct price administration, relying on
rules and remedies . . . that are easier to administer").
B. Applying Less Restrictive Alternative
Analysis to Product Design Undermines
Innovation Incentives for All Firms and
Collaborations.
The Ninth Circuit's decision also undermines innovation incentives in another respect: the court took it
upon itself to create and impose its own less restrictive alternative. In the product design area, that, too,
is a form of judicial second-guessing that inevitably
undermines innovation incentives here and across industries.
The Ninth Circuit's approach creates economic uncertainty and stifles innovation. Under its analysis, if
a court believes that it can redesign a product or

12
business model in a way that benefits one or more
market participants, it is free to do so under the guise
of less restrictive alternative analysis. Again, this
type of after-the-fact speculation inevitably creates
disincentives for businesses to form collaborations, invest in product design and development and continually innovate, as there is no assurance that a court will
not use injunctive relief to revise those decisions and
impose different models—models that the collaborations did not choose and that may have made them
uneconomical. Moreover, a court may also impose treble damages for prior product design decisions by allowing juries to imagine product designs that they believe would be better.
This case is a classic illustration. The institutions
that are members of the NCAA want to offer a particular type of athletic product—an amateur athletic
product that they believe is consonant with their primary academic missions. By doing so, as this Court
has recognized, they create a differentiated offering
that widens consumer choice and enhances opportunities for student-athletes. NCAA, 468 U.S. at 102.
These same institutions have drawn lines that they
believe balance their desire to foster intercollegiate
athletic competition with their overarching academic
missions. Both the district court and the Ninth Circuit
have now said that they may not do so, unless they
draw those lines differently. Yet neither the district
court nor the Ninth Circuit determined that the lines
drawn reduce the output of intercollegiate athletics or
ascertained whether their judicially-created lines
would expand that output. That is not the function of
antitrust courts, but of legislatures. Chicago Pro.
Sports, 95 F.3d at 597 (noting that the "antitrust laws
do not deputize district judges as one-man regulatory

13
agencies" and that "[u]nless a contract reduces output
in some market, there is no antitrust problem").
C. If Less Restrictive Alternative Analysis
Applies to Product Design, Then Courts
Must Assess the Effect on Both Product
Quality and Marketwide Consumer Welfare.
To the extent less restrictive alternative analysis is
even relevant to product design, this case also highlights an area of the law that is in significant need of
economic input, structure, and clarification. In particular, less restrictive alternative proposals and analyses effectively are "but for" or counterfactual inquiries premised on the notion that legitimate objectives
can be equally promoted or protected (or even improved) with a different and supposedly "less restrictive" set of agreements or contract restraints.2
While the Ninth Circuit (and Respondents) pay lip service to
the notion that the burden remained on Respondents to show
that a proposed "less restrictive alternative" could achieve the
same procompetitive objective of preserving amateurism as the
NCAA's challenged rules, the decision below does the opposite.
First, by requiring that the NCAA prove that each type of challenged rule relating to amateurism be independently essential to
preserving the difference between the intercollegiate and professional sports, the decision below misapprehends the role of "essentiality" in rule of reason analysis: the fact that NCAA members must coordinate on rules for preserving amateurism should
lead courts easily to approve precisely this type of coordination.
Am. Needle, 560 U.S. at 203 ("depending upon the concerted activity in question, the Rule of Reason may not require a detailed
analysis; it `can sometimes be applied in the twinkling of an eye"')
(quoting NCAA, 468 U.S. at 110 n.39). "Essentiality" does not
mean that each rule must itself be essential in its own right to
keep the NCAA different from professional sports. Second, the
2

14
Yet, this case highlights economic flaws in less restrictive analysis that should be addressed, especially
when a court, through an injunction, compels a
change in a product's design or characteristics. The
promotion of consumer welfare remains the over-arching objective of the Sherman Act. Ohio v. Am. Express
Co., 138 S. Ct. 2274, 2284 (2018) (quoting Leegin Creative Leather Prods., Inc. v. PSKS, Inc., 551 U.S. 877,
886 (2007)). Accordingly, it makes sense that any asserted—or here, imposed—less restrictive alternative
should be reviewed economically for its effect on consumer welfare versus leaving the challenged restraints in place.
Here, that was not done. It does not appear plaintiffs
offered any evidence to demonstrate that any less restrictive alternative would promote consumer welfare
with the same scope and impact as the NCAA's challenged rules. Neither did the lower courts make any
assessment of how judicially forcing a change in the
NCAA's fundamental amateurism rules may affect (i)
the overall (or particular) output of all NCAA sports
contests across all divisions and sports, (ii) the quality
Ninth Circuit's approach is effectively a "least restrictive alternative" requirement. Once the court concluded that the NCAA
must prove that each rule is itself essential, it became quite easy
for it to decide that a slight tweak or adjustment to the rule
would equally suffice. That reasoning creates a standard by
which courts can, and as the lower courts did here, continually
second-guess procompetitive restraints with easily asserted alternatives until, in theory, a supposedly "less" restrictive one is
found. That process inevitably leads to a "least" restrictive alternative approach as courts substitute their business judgments
for those of the collaborators. Despite that reality, the Ninth Circuit's decision does not even analyze the competitive effects of its
self-created and supposedly less restrictive alternative on the
NCAA's product across sports and divisions.

15
of those contests, and (iii) the educational and sportsrelated experiences of all student-athletes at NCAA
institutions. The enormous consumer demand for
some amateur sports and some schools creates strong
incentives for universities on their own to deviate
from the rules fundamental to creating amateur sport.
Without those rules to control the actions of a few, the
NCAA's fundamental product is threatened overall.
NCAA, 468 U.S. at 102 (noting "the integrity of the
[NCAA's] `product' cannot be preserved except by mutual agreement; if an institution adopted such restrictions unilaterally, its effectiveness as a competitor on the playing field might soon be destroyed").
Therefore, at a minimum, any proposed less restrictive alternative must be examined economically to determine if overall output would be reduced, overall
quality would be reduced, or overall student-athlete
experiences would be negatively affected. Without doing so, a court cannot ascertain if the less restrictive
alternative is, in fact, less restrictive. It can only be so
in any relevant antitrust sense if the alternative does
not compromise consumer welfare when compared
with the challenged restraint. Absent such a standard, courts can substitute their own views on how the
NCAA's (or any collaboration's) product should be designed or the organization run without accounting for
the likely effects on the output of the collaboration's
product, student-athletes, or consumers who enjoy
amateur athletic competitions that the NCAA's rules
create.

16
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
WILLIAM L. MONTS III
HOGAN LOVELLS US LLP
555 Thirteenth St, N.W.
Washington, D.C. 20004

BRUCE D. OAKLEY
Counsel of Record
HOGAN LOVELLS US LLP
609 Main Street
Suite 4200
Houston, TX
(713) 632-1400
bruce.oakley@hoganlovells.com

Counsel for Amici Curiae
NOVEMBER 18, 2020

APPENDIX

la
APPENDIX: LIST OF AMICI CURIAE'
Rosa Abrantes-Metz, NYU Stern School of Business
Michael I. Cragg, The Brattle Group
Daniel L. McFadden, University of California, Berkeley
Janusz A. Ordover, NYU Stern School of Business
Richard L. Schmalensee, Massachusetts Institute of
Technology

1 This brief presents the views of the individual signatories.
Their institutional affiliations are listed for identification purposes only

